HHS/OIG, Audit -"Review of New York State's Efforts to Account For and Monitor Sub-Recipients' Use of Public Health Preparedness and Response to Bio-Terrorism Program Funds,"(A-02-03-02009)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of New York State's Efforts to Account For and Monitor Sub-Recipients' Use of Public Health Preparedness
and Response to Bio-Terrorism Program Funds," (A-02-03-02009)
October 15, 2003
Complete
Text of Report is available in PDF format (1.02 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine whether Health Research, Incorporated (HRI) properly
recorded, summarized and reported bio-terrorism preparedness transactions by specific focus areas designated in the cooperative
agreements.  We found that HRI accounted for bio-terrorism program funds
in accordance with the terms and conditions of the cooperative agreements with the Centers for Disease Control and Prevention
(CDC).  HRI officials stated that CDC funding had not been used to supplant existing State and local programs.  We
also found that, while HRI implemented procedures to monitor sub-recipients expenditures of CDC funds, they are not currently
performing on-site audits of sub-recipients.  However, HRI officials indicated that they plan to implement an on-site
audit component to their monitoring procedures in the future.  We recommended that HRI continue to implement plans
to add an on-site audit component for monitoring sub-recipients and address problem areas, as they are identified.  State
officials concurred with our recommendation.